<html>
<title> - BUILDING BRIDGES- OR BURNING THEM? THE ESCALATION OF VIOLENCE AGAINST ROMA IN EUROPE</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                   BUILDING BRIDGES_OR BURNING THEM?

 
                   THE ESCALATION OF VIOLENCE AGAINST


                             ROMA IN EUROPE

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 15, 2012

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 112-2-4]
                             
                             
                             
                             
                             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                                        
                                                         
                             
                          
                             
                             


                      Available via http://www.csce.gov
                   
                   
                                    _______________
                   
                         U.S. GOVERNMENT PUBLISHING OFFICE
   93-734 PDF                   WASHINGTON : 2015             

_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                  
                   
                   
                   
                   
                   


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,       BENJAMIN L. CARDIN, Maryland, 
Chairman                                Co-Chairman
JOSEPH R. PITTS, Pennsylvania           SHELDON WHITEHOUSE, Rhode Island
ROBERT B. ADERHOLT, Alabama             TOM UDALL, New Mexico
PHIL GINGREY, Georgia                   JEANNE SHAHEEN, New Hampshire
MICHAEL C. BURGESS, Texas               RICHARD BLUMENTHAL, Connecticut
ALCEE L. HASTINGS, Florida              ROGER F. WICKER, Mississippi
LOUISE McINTOSH SLAUGHTER,              SAXBY CHAMBLISS, Georgia
New York                                MARCO RUBIO, Florida
MIKE McINTYRE, North Carolina           KELLY AYOTTE, New Hampshire
STEVE COHEN, Tennessee

                  
                                     

                     EXECUTIVE BRANCH COMMISSIONERS

                 MICHAEL H. POSNER, Department of State
               MICHAEL C. CAMUNEZ, Department of Commerce
               ALEXANDER VERSHBOW, Department of Defense

                                  [ii]
                                  
                                  
                                  
                                  
                                  
                                  


                   BUILDING BRIDGES--OR BURNING THEM?

                   THE ESCALATION OF VIOLENCE AGAINST

                             ROMA IN EUROPE

                              ----------                              

                           February 15, 2012
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Robert B. Aderholt, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    13

                               WITNESSES

Andrzej Mirga, Senior Adviser on Roma and Sinti Issues, OSCE.....     3
Dezideriu Gergely, Executive Director, European Roma Rights 
  Center.........................................................     6

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    30
Prepared statement of Hon. Benjamin L. Cardin....................    32
Prepared statement of Andrzej Mirga..............................    33
Materials for the Record.........................................    39

                                 [iii]


                   BUILDING BRIDGES--OR BURNING THEM?



                   THE ESCALATION OF VIOLENCE AGAINST



                             ROMA IN EUROPE

                              ----------                              


                           February 15, 2012

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 2 p.m. in room B-318, Rayburn House 
Office Building, Washington, DC, Hon. Christopher H. Smith, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; and Hon. 
Robert B. Aderholt, Commissioner, Commission on Security and 
Cooperation in Europe.
    Witnesses present: Andrzej Mirga, Senior Adviser on Roma 
and Sinti Issues, OSCE; and Dezideriu Gergely, Executive 
Director, European Roma Rights Center.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. The Commission will come to order. And let me 
begin by expressing my apology for being so late. It's 45 
minutes after we were supposed to start. We did have a series 
of votes--five votes--on the floor. And so I do apologize for 
that.
    I'd like to welcome everyone for joining us this afternoon, 
particularly our witnesses who have traveled here from Europe 
to be able to testify today before the Helsinki Commission. We 
appreciate your dedication to the human rights and dignity of 
the Romani people, probably the most discriminated against and 
disadvantaged people in Europe today.
    Roma, Europe's largest ethnic minority, has faced 
discrimination and worse for hundreds of years. In parts of 
Europe, they were even literally enslaved as late as the 19th 
century, when our own country was battling this evil, and in 
the 20th century were the victims of German genocide during 
World War II. An estimated 500,000 Roma were exterminated by 
Nazi Germany and its accomplices.
    In 1990, hopes for the democratic transitions under way 
were enormous. And the OSCE was likewise optimistic that it 
would play its part in ensuring that Roma would be equal 
sharers in the benefits of freedom, democracy and the free 
economy that it would bring. But the 1990s were difficult years 
for Roma, who were faced with murderers and other acts of 
violence and police brutality.
    With a view to that violence, I wrote then-secretary--
Assistant Secretary for Democracy, Human Rights, and Labor, 
Harold Koh, regarding Romani human rights and religious 
freedom, and urged the State Department to be sure that these 
issues were fully covered in the State Department's annual 
country reports on human rights practices. The Commission 
became increasingly active on Roma human rights issues. In 
2002, we held a Helsinki hearing on the situation of Roma. In 
that same year, my resolution on improving equal opportunities 
for Roma in education was adopted by the OSCE parliamentary 
assembly.
    Although about 10 years ago many countries began to 
implement measures to stem the violence, resulting in fewer 
attacks and more accountability when attacks occurred, the sad 
fact is that these positive developments have not--I repeat--
have not been sustained.
    To make matters worse, in recent years, there has been a 
terrifying escalation of violence against Roma, prompting the 
Helsinki Commission to hold a briefing on this issue in 2009. 
The current wave of violence has resulted in horrible 
fatalities like the murder of the 5-year-old, Robert Csorba, in 
Hungary, who along with his father was killed by sniper fire 
when they tried to flee their burning house, which had been set 
afire by a Molotov cocktail.
    There are many cases of horrifying violence against Roma, 
people who have been maimed or disfigured for life, like the 
13-year-old girl in Hungary shot in the face by the extremists 
who also killed her mother, or the toddler known as Baby 
Natalka in the Czech Republic who was burned over 80 percent of 
her body in a Molotov cocktail attack.
    As we discuss today the anti-Roma mob attacks and 
demonstrations that continue to occur in several countries, we 
should ask what is the impact on families and children who 
huddle in their homes while a mob outside yells: ``Gypsies, to 
the gas''? Exactly this sort of thing is really going on in 
2012. The Roma still have to face such open savagery. It's 
beyond imagination.
    Yet, at the same time, many governments are voicing serious 
concerns about this situation. One of the purposes of this 
hearing is to ask how well the solutions respond to the 
problem. Every EU country is now working up a national strategy 
for Roma integration. Do these strategies respond to the real 
gravity of the danger threatening the Roma?
    Likewise our own State Department has prioritized the 
rights of the Romani people. And this has been implemented with 
real commitment by many ambassadors and human rights officers. 
Yet the country reports on human rights practices has been 
uneven. And so we will all have to continue to watch them 
carefully. They should be a touchstone of our government's 
commitment to the human rights of the Romani people.
    Finally, we should also talk about humanitarian concerns. 
In the post-communist countries, Roma have been the absolute 
losers in the transition to market economies. Last year, the 
Hungarian minister for social inclusion, Zoltan Balog, said 
that their situation is worse today than it was under 
communism. Over the past 20 years, Roma have been caught in a 
downward spiral, accelerating at exponential rates. While they 
were at the bottom of the social ladder during the communist 
period, they are often off the grid, living in shantytowns, 
urban ghettos, or segregated settlements that I and members of 
this Commission have visited. I remember one visit to a Romani 
ghetto that was right next to a dump, and the smell of garbage 
was overwhelming. And yet these individuals had to live there 
and raise their children there.
    A UNDP report concluded that Roma in five Central European 
countries live in conditions more typically found in sub-
Saharan Africa than in Europe. And I would note 
parenthetically, as chairman of the Africa subcommittee of the 
House of Representatives, I've been to many very, very poor 
places in Africa. And what I saw at some of these Romani houses 
or townships has clearly approximated what I've seen in some of 
the most destitute places in Africa.
    But can governments really expect to make improvements with 
regard to other problems Roma face in housing, in employment, 
education and so on, if shocking acts of violence continue 
unabated? That is the open question and part of what we hope to 
at least to begin to address today.
    We will begin by receiving testimony from our two 
distinguished witnesses, Andrzej Mirga, who is well-known in 
Washington. Mr. Mirga is the senior adviser on Romani issues to 
the OSCE's Office for Democratic Institutions and Human Rights 
or ODIHR. He first testified in Washington in 1994 and has 
brought his considerable experience and insights to the 
Helsinki Commission and to all the other governments of the 
OSCE. And we thank you for doing it for our Commission as well. 
We're grateful for his leadership he brings to the OSCE on 
these issues. Mr. Mirga, welcome back to Washington.
    Our second witness will be Dezi Gergely, the Executive 
Director of the European Roma Rights Center. The ERRC was 
established in 1996 and has spearheaded some of the most 
important litigation to protect the human rights of Roma. Mr. 
Gergely, thank you again for being here today--and my fellow 
Commissioners--and you have to know and I know you know this, 
but this record will be very widely disseminated to many 
opinion makers, but especially to members of Congress--House 
and Senate--and to our Commissioners. So this record becomes 
information that very often is actionable and gives us a 
blueprint as to what we should do, as well as the lay of the 
land as of today as you present it. So I thank you again for 
being here.
    Mr. Mirga.

  ANDRZEJ MIRGA, SENIOR ADVISER ON ROMA AND SINTI ISSUES, OSCE

    Thank you. Mr. Chairman, I would like my full statement to 
be included into the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Mirga. Honorable chairperson, distinguished members of 
Helsinki Commission, ladies and gentlemen, I would like first 
to express my gratitude to the chairperson of the Helsinki 
Commission for organizing this hearing on Roma and Sinti today. 
I am grateful for the long dedication of Chairman Smith and Co-
Chairman Cardin to the protection of human rights of Roma. I 
also appreciate the statement made by Secretary of State 
Clinton about Roma human rights most recently in Sofia on 
February 5th.
    It's a great opportunity to share with you our views and 
concerns regarding Roma and Sinti in the OSCE area with this 
important commission. It's the right time to address these 
issues as some developments in recent years are highly 
disturbing and we need to speak up about them.
    I testified here with several Roma friends last time in 
mid-2009. It was a time when the financial and economic crisis 
has erupted. And we signaled the worrying developments that 
were evolving with regard to the Roma and Sinti. Today, with 
fiscal difficulties in a number of European countries and a 
second economic crisis looming, I have to report to you that 
some of these concerns unfortunately have become reality. No 
doubt the ongoing economic difficulties have intensified and 
exacerbated some of the negative trends I elaborated upon in 
the briefing in 2009.
    On a general note, let me underline that most problems 
facing Roma and Sinti population have by no means been 
resolved. And for the most part, this minority has not yet 
benefited from lasting improvements in human rights and social 
inclusion. This is unfinished business in Europe that requires 
much stronger and long-term interventions at national--at 
European level. That was one of the conclusions in my 2009 
briefing here, based on the finding of the so-called status 
report of 2008. This conclusion is more valid than ever today.
    Currently, it seems the requirement for much stronger and 
long-term interventions is widely recognized. As all major 
international organizations and EU institutions are calling 
upon governments to step up their efforts to realize objectives 
regarding Roma and Sinti social inclusion, this is done partly 
as a response to a serious and dangerous rise in violence and 
intolerance against members of this minority in number of 
countries. It comes, however, at a time when European 
governments face real fiscal and economic difficulties, making 
it a bad time to approach them on other issues. Governments are 
facing tough decisions from the introduction of austerity 
programs to reduce public spending and keep national debt under 
their control.
    In the past two years, in the context of deepening economic 
hardship, we have witnessed a number of disturbing 
developments. There was the crisis related to Roma migrants in 
France. We have seen the rise of tensions in extreme right or 
neo-Nazi groups in North Bohemia of Czech Republic. We have 
seen mass protests against Roma in number of cities in 
Bulgaria, following with the incidents in Katunitsa near 
Plovdiv.
    In most of these situations, we have seen populist, 
extremist--extreme right or neo-Nazi groups--actively 
exploiting anti-Roma prejudice, sometimes generating hostility 
or instigating violence against the Roma and Sinti communities. 
We are concerned about current public discourse of Roma and 
Sinti that revives past anti-Roma rhetoric centered on the 
image of them as a nomad, viewing them as a burden to social 
system, or as a danger for public security and order based on 
alleged gypsy criminality.
    Roma and Sinti migration has become a key challenge. And it 
will likely remain so for some time. The social stigma 
associated with Roma and their visibility as migrants will 
continue to heighten the risk of discriminatory practices and 
social exclusion in countries of destination. The rise in open 
and often radical anti-Roma politics and policies at local 
level is another challenging and new phenomenon.
    We witnessed local authorities and mayors actively pursuing 
policies aimed at forcing Roma and Sinti from their 
communities. Exclusion or separation is openly advocated in 
some municipalities, including in the segregation of children 
in the educational system. There are also cases of refusal by 
local authorities to accept or request state aid aimed at 
supporting Roma communities. In the past have been focused on 
providing assistance to newer democracies and states in crisis 
or post-crisis situation. Today and likely over the near 
future, such assistance will be provided to consolidate it in 
young democracies in instances of hate crime targeting Roma and 
Sinti--as instances of hate crimes targeting Roma and Sinti may 
become a recurrent issue there.
    Parallel to this worrying development, we are witnessing 
more promising efforts and initiatives aimed at ensuring Roma 
human rights and social inclusion. The most important are the 
new agenda of the European Union of Roma. The EU has both the 
political and financial tools to enforce some measures on its 
members some think the other organizations don't have. Most 
recently on April 5th 2011, the Commission issued a 
communication on EU framework for national Roma integration 
strategy, which was endorsed by the council in June. The 
framework commits all 27 member states to develop of targeted 
policies that systematically tackle the socio-economic 
exclusion and of discrimination against the Roma people in the 
EU.
    This complex EU agenda on the Roma and Sinti has been 
overshadowed, however, by the euro crisis itself. Much of the 
response to the question of how this new effort of the EU 
regarding Roma can be successful and lasting will depend on the 
response to other question, how will the EU resolve the present 
crisis and how long it will take to recover from it? 
Surprisingly little has, however, appears to have been paid to 
its possible negative impact on the most socially and 
economically disadvantaged group in societies, like Roma and 
Sinti.
    There seems to be a somehow parallel discourse of Roma 
disconnected from ongoing debates and concerns. The report 
recently commissioned by the EU on use of its financial and 
policy instruments with regard to Roma are in most parts 
critical. Minimal progress has been achieved. Disproportional 
funds were used to produce short-living outcomes. The effective 
use of this has been also questioned.
    To conclude this part, prospects in short terms appear poor 
in fields where there has been some constant, if minor, 
improvement in the past, such as in education, housing, 
political participation, or Roma representation in public 
media. A number of participating states that appear to have 
been set-backed into area mentioned as the gaps between 
standards for Roma and Sinti and the majority population have 
been in fact widening. With few social and economic indicators 
showing improvement in situation of Roma, the evidence of 
increasing hostility toward the communities among Roma in some 
states, these disturbing trends might not just continue, but 
could very well worsen.
    The last part of recommendation I may leave for later. And 
in discussion, I may elaborate more on this. Thank you.
    Mr. Smith. Mr. Mirga, thank you very much for your 
testimony and the comprehensiveness of it and the longstanding 
nature of your commitment on this and other issues, but 
specially the Roma. Thank you so much.
    Mr. Gergely?

  DEZIDERIU GERGELY, EXECUTIVE DIRECTOR, EUROPEAN ROMA RIGHTS 
                             CENTER

    Mr. Chairman, I would like to take this opportunity to 
extend my gratitude on behalf of the European Roma Rights 
Center to be invited to this prestigious event in order to 
testify about the human rights situation of Roma in Europe. And 
with your approval, I would like my full statement to be 
included in the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Gergely. Distinguished representatives of the 
Commission, ladies and gentlemen, a recent European Union 
survey on minorities and discrimination highlights that on 
average, one in five from our respondents were victims of 
racially motivated personal crime at least once in previous 12 
months. Eighty-one percent of Roma who indicated that they were 
victims of assault, threat or serious harassment considered 
that their victimization was racially motivated. Between 65 
percent and 100 percent of Roma in the surveyed European 
countries did not report their experiences of personal 
victimization to the police.
    The main reason given by the Roma was that they were not 
confident that the police would be able to do anything. This 
lack of confidence is not surprising to someone familiar with 
Roma in Europe, and I will explain why. Two weeks ago, the 
Council of Europe's Committee of Ministers adopted an official 
declaration to express deep concern about the rise of anti-
Gypsyism and violent attacks against Roma, which constitute a 
major obstacle to the successful social inclusion of Roma and a 
full respect of their human rights.
    The fact is that the racist or stigmatizing anti-Roma 
rhetoric has been on the rise in public and political 
discourse, including accusations that Roma, as an ethnic group, 
are engaged in criminal behavior. There are well-documented 
examples from France, from Italy, Hungary, Slovakia, Bulgaria, 
or Czech Republic. And in some cases, these words were 
understood as--as encouraging violent action against the Roma, 
such as mob riots or violence. Extremist groups, political 
parties, and politicians have sharpened their anti-Romani 
rhetoric and actions, galvanizing segments of the public 
against Roma in Hungary, Czech Republic, Lithuania in 
particular, or Bulgaria. Anti-Gypsy stereotypes also continue 
to be spread and perpetrated in the media across Europe, which 
reports primarily on Roma in the context of only social 
problems and crime.
    Violence against Roma remains a serious problem not only 
because it harms Roma directly affected by the attacks, but 
because Roma as an ethnic group are impacted by the lack of 
effective response by state authorities. In 2011, the European 
Roma Rights Center published a report examining the state 
response to 44 selected attacks against Roma in Czech Republic, 
in Hungary and Slovakia.
    And a number of shortcomings in the state response to 
violence against Roma are apparent. Many Roma victims of 
violent crimes do not secure justice. A limited number of the 
perpetrators of violent attacks against Roma are successfully 
identified, investigated, and prosecuted. Even fewer are 
eventually imprisoned for the crimes they have committed 
against Roma.
    At the time of publications, judgments finding the 
perpetrators guilty have been reached in nine out of the 44 
selected cases. Of those nine cases, only six resulted in 
imprisonment; several are under appeal. And three resulted in 
suspended sentences or fines, including persons with known 
affiliations to neo-Nazi groups in the Czech Republic, for 
example.
    Police investigations were suspended with no perpetrator 
identified in 27 percent of all the cases. Racial motivation 
was confirmed in only three out of 44 selected cases of 
violence against Roma. In 11 other cases, racial motivation is 
included in the indictment of impending cases, and in 50 
percent of all the selected cases racial motivation of the 
crimes committed against Roma was ruled out or not confirmed.
    The failure of law enforcement authorities to identify the 
perpetrators of crimes against Roma in a considerable number of 
investigations creates a climate of impunity and may encourage 
further acts of violence against Roma. The issuance by courts 
of only suspended prison sentences to persons found guilty of 
serious crimes against Roma reinforces the message that it is 
OK to attack Roma.
    Recognition of racial motivation in such a small number of 
cases may indicate a low level of importance placed on 
aggravating circumstances of the crimes committed and may fail 
to account for the full nature of the attacks. These findings 
may have a serious negative impact of the will on the Romani 
individuals to report crimes committed against them to law 
enforcement authorities, and explains the results of the 
European Union survey on minorities and discrimination.
    How can governments put an end to impunity and restore the 
confidence of Roma in law enforcement and reduce the level of 
violence? First, governments must adopt a zero-tolerance policy 
against racist speech uttered by public officials. All such 
racist speech should be immediately denounced and the 
responsible official removed from his or her job. Racist speech 
by private actors should be also vigorously condemned by 
government at the highest level.
    It is important that the government distinguish between 
free expression, which must be protected in a democratic 
society, and acts of intimidation, which must be strongly 
suppressed through acts of law enforcement. The spectacle of 
neo-Nazis carrying flaming torches through Roma settlements, 
shouting anti-Romani epithets, preventing people from going to 
their jobs or to schools, as occurred in several countries--
Hungary or Bulgaria, for example--must not be allowed to recur.
    Most important of all, governments must take a firm stance 
against racially motivated violence. They should guarantee 
speedy and effective investigations and prosecutions of all 
crimes committed against Roma, and identify any racist motives 
for such acts, so that the perpetrators do not go unpunished 
and escalation of ethnic tension is avoided. Governments should 
ensure full assistance, protection, and compensation for the 
victims of violence. Last year, the EU launched an important 
process to promote Roma integration, focusing on education, on 
health, employment, and housing. Member states of the EU are 
obliged to develop and implement strategies for such 
integration, but it is crucial that the states recognize the 
interdependence of inclusion and anti-discrimination. Any 
strategy developed to improve the social and economic 
integration of Roma must include measures combating 
discrimination and addressing anti-Gypsyism.
    The United States has long been a leading global example in 
ensuring the inclusion of minorities in society. Last week, the 
U.S. announced its intention to become an official observer of 
the decade of Roma inclusion, another important European 
initiative designed to encourage Roma advancement. Here is how 
the U.S., from our point of view, can assist Europe as it tries 
to achieve true integration of Roma at all levels of society.
    Offer assistance of U.S. law enforcement in addressing bias 
crimes against Roma. Offer good practices as examples of 
promoting minority inclusion in education, in housing, health 
care, or employment. Offer financial assistance to civil 
society organizations in Europe addressing anti-Roma 
discrimination and rights violation.
    Thank you very much for your attention.
    Mr. Smith. Thank you very much for your testimony and your 
extraordinary leadership on this very, very important human 
rights issue. Let me ask you a couple of questions, starting 
off with the anti-Roma riots, which are increasing. The fact 
that they're occurring throughout EU countries is shocking in 
and of itself.
    And then some have the gall to call it demonstrations--
which is a misnaming to a huge extent. What proactive steps are 
the governments taking to mitigate this incitement that's 
occurring, and much of the violence that ensues from these 
demonstrations, these riots? Mr. Mirga?
    Mr. Mirga. The question you pose brings some challenges 
because we, in fact, do not have much to report as positive 
steps to counter such phenomena like extreme right and what 
they do campaigning against the Roma. We know about some steps 
taken, for example, into the public to imprison some of the 
leaders of the extreme right, but they are finding ways to get 
out, of course. And we know about some steps in Hungary to--for 
example, but they are reappearing under new name, so they are 
still able to organize marches.
    I think that the main objective of these kind of groups is 
to benefit during the election time, because they are trying to 
get public support by staying up, at that time especially, 
anti-Roma slogans, rhetorics, because they believe this can 
give them votes. And as we warned in 2009 when I was here, I 
said that one test case will be and just after we landed it 
became the--in the country. So that is a telling story.
    We also know about some cases which were very positively 
handled, like in the case of Natalka in Czech Republic, and the 
court sentence of the perpetrators. But after we had some 
statement of the state of issues which a little bit 
undermined--or trying to undermine the court sentence which, 
again, is something which should probably not happen in this 
situation.
    So we receive something like ambiguous messages. On the one 
hand we see some reaction which is proper--as I said for 
example, court cases are highly appreciated, but again from the 
politicians we are receiving mixed messages, which as I said, 
should be here--the line should be kept and the message should 
be one: condemning such situations.
    Mr. Smith. Thank you.
    Mr. Gergely. I would only like to add the fact that even 
though we cannot name these proactive measures, what is 
extremely crucial is speed and effective response. Unless the 
government does not react to violent riots or mob riots 
attempting to attack communities, which happened in several 
countries--as long as there is no reaction in defending these 
communities, of course it would spread out. And this is the 
case of Bulgaria, where last year we could see in more than 15 
cities mass protests against the Roma communities.
    The state response was initially slow. When the law 
enforcement officials reacted, they could manage the mobs. In 
Czech Republic it was the same. It is even interesting that 
when the mobs were stopped by the police, the mobs were 
shouting: You are defending Gypsies. So law enforcement 
officials haven't defended Gypsies. This is what they have to 
do, to act and to ensure protection.
    Mr. Smith. Mr. Mirga, let me ask you, as you know, OSCE-
participating States are charged with collecting hate crime 
data and providing that to ODHIR. Have the countries provided 
information on these hate crimes to ODIHR as it relates to 
Roma?
    Mr. Mirga. We--with TND and other departments--we are 
preparing such reports every year. There is a standard question 
of central governments who--to get some response to. In fact, 
we are receiving very few information from countries about the 
cases of irrational hate crimes
    Mr. Smith. Did they give an explanation? And could you 
provide to our Commission those countries that have responded 
and those that have not? And do you find the quality of that 
information is--are you encouraged that those that do respond 
are actually doing their due diligence?
    Mr. Mirga. Well, we are trying to encourage--
    Mr. Smith. I know you are, but I'm talking about the 
countries, in terms of their response.
    Mr. Mirga. Oh. Yeah. I think that governments who provide 
us information--there are few, yes; I don't want to name them 
here. But----
    Mr. Smith. Could you? It would be helpful if you would.
    Mr. Mirga. ----they are few--yes? I'll be--
    Mr. Smith. Put you on the spot.
    Mr. Mirga. I----
    Mr. Smith. OK.
    Mr. Mirga. ----at the moment, yes? But there are really 
few, yes? And they're--in general, we do not have much 
information. So we have to rely on other sources coming from 
the civil society mostly, yes? And this has to be checked.
    Mr. Smith. Exactly.
    Mr. Mirga. Yes. We have, for example, I am from Poland, 
yes? And I am closely monitoring the situation because I am 
Roma from Poland. And I have a good relationship with the 
minister of interior, and they are providing us in a letter if 
we wish to have, and they are providing. In some countries, 
it's more difficult to get such information.
    Mr. Smith. As the European Roma Rights Center has pointed 
out in a report on human trafficking, that research in 
Bulgaria, the Czech Republic, Hungary and Romania and Slovakia 
during early 2010 indicated that Roma represent 50 [percent] to 
80 percent of victims in Bulgaria, at least 40 percent in 
Hungary, 70 percent in Slovakia, and up to 70 percent in parts 
of the Czech Republic.
    Our own U.S. government TIP report, trafficking in persons 
report--and I would note parenthetically, I wrote the law, it's 
called the Trafficking Victims Protection Act that created our 
response, includes that TIP report--well, in the annual report 
country-by-country, it makes for very disturbing reading. 
Country after country, with regards to Roma--for example, in 
Hungary Roma victims are over-represented in trafficking 
victims from Hungary. Roma women and girls who grew up in 
Hungarian orphanages are highly vulnerable to internal sex 
trafficking.
    With regards to Romania, that there are reports that ethnic 
Roma criminal groups in Romania throughout Europe. There is a 
very disturbing statement--and this runs through these--that 
some did not approach police out of fear of traffickers' 
reprisals. There's others who said they didn't want to go to 
the police because they're not sure which side the police were 
on.
    In the Slovak Republic the comment is made that the 
government's poor relations with the Roma community resulted in 
significant problems in victim identification and prosecutions, 
including a government estimate that only one-third of all 
trafficking cases involving Roma are investigated. In other 
words, two-thirds are not. And it goes on and on, you know--you 
read country after country trafficking is modern-day slavery, 
whether it be labor or sex trafficking.
    And as both of you know so well, the ODIHR and the OSCE is 
certainly absolutely committed, as are you are, Mr. Gergely. 
Could you speak to the issue of trafficking of Roma, and 
elaborate on some of those numbers if you would? And the fact 
that law enforcement ought to be absolutely, proactively and 
aggressively--as well as the governments that support law 
enforcement--on the side of these victims--please speak to.
    Mr. Mirga. As regards trafficking, ODIHR is involved in 
supporting some of the programs or projects on antitrafficking. 
And the focus is on the victims, We are trying to obtain some 
more concrete data from some countries. Recently we were very 
much focused provide some support to Albania, for example, and 
for some activities there on Roma who were trafficked and 
brought. It seems to be one of the key issues for number of 
countries in Western Balkans, this ongoing process.
    To obtain, however, data is one of the challenging things. 
We in fact are missing concrete numbers. In this regard that 
there is a number of agencies dealing with these issues and 
NGOs who are involved. I was recently visiting Italy, where we 
were supporting some civil organizations dealing with 
trafficked Roma families--children, mostly. And we visited a 
center for children trafficked in Rome where NGOs are taking 
care and taking them from the street there. We visited families 
who were victims of trafficking as well, and they were placed 
in some camps.
    We are trying to obtain more information: What is the 
extent of the issue? How numerous are this population, for 
example, in Rome, and whether these countries from--aware they 
were trafficked? Most of them were from Western Balkan 
countries, and some of them especially from Romania. So that 
was what our findings was. But again, to obtain concrete data 
about numbers, it was quite difficult. When we are working with 
trying to talk to those agencies--state agencies, police--we do 
not, again, get something concrete. That is a main concern, 
that it's difficult to get something real.
    The other issue which emerged also in Italy and France and 
other countries is about the expulsion policy of--or the 
treatment of women and children who are sometimes on the street 
begging or doing other things. We're trying to talk to some of 
the governments that--the effort to get rid of these people, 
from the streets, and to deport them may--should be maybe 
rethought because some of the women with children may be 
victims of trafficking. And for the second time you are just 
punishing them by deporting back in a very straightforward way; 
whereas those people may be a subject for care, because we have 
to recognize who is a real victim and who is not a real victim 
of the trafficking.
    And here I think still there is very little understanding 
of the part of the enforcement bodies who would like to see 
these women, children as a--simply organized by mafia, and 
disregard that they consider that they are victims. They are 
expelling the women without due consideration for their 
situation. And it is something concerning.
    Mr. Gergely. I think that there are a couple of issues 
which we have to underline when we speak about trafficking, as 
well as when we speak about hate crimes or other similar, 
related areas. And on the first place, we have to be aware of 
the fact that the Roma minority--it is placing a major 
discrepancy situation in comparison with the majority of the 
populations in the European countries. In terms of social, 
economic, educational situation, this low level puts them in 
extremely high risks, in terms of being victims of trafficking 
or being victims of other sort of crimes.
    There are two things which we have to underline here. First 
of all, there is a lack of disaggregated data on the basis of 
ethnicity, when we are speaking about minorities which are 
victims of trafficking. We do not have the information to what 
extent--and when I say information, I am saying official 
information coming from the governments--on to what extent this 
phenomenon is affecting the Roma minority.
    And secondly, due to this fact that we are lacking official 
data, we lack also policies targeting these particular groups 
which are affected by the trafficking, for example. So 
basically we do have policies which are targeting trafficking, 
but we do not have targeted policy to the victims of 
traffickings--in our case, the Roma women or children. So this 
is something which needs to be addressed.
    Mr. Smith. Are groups like IOM and others at least 
attempting working with governments?
    Mr. Gergely. There are several examples of cooperation----
    Mr. Smith. Yeah.
    Mr. Gergely. ----of course. But the problem is that--when 
you have a state policy which is not targeting by its policy a 
vulnerable group, and seeing exactly the extent of the 
situation and trying to really tackle in a particular way that 
phenomenon--it's really hard to see improvement. And 
unfortunately we can see the same situation in other areas of 
concern. We are lacking data on health situation; we are 
lacking data on the unemployment situation; we are lacking data 
on several areas. And because of this lack of information, we 
don't know, first of all, to what extent we have the problems; 
and secondly, to what extent the governments are addressing the 
problems fully or not.
    Mr. Smith. Let me ask you with--the recent European court 
case which concluded that sterilization of a Romani woman from 
Slovakia violated the European Convention on Human Rights--
called it cruel and inhumane. And I understand there are at 
least five more similar cases pending against Slovakia. 
Obviously forced sterilization is an egregious form of 
violence. Is it continuing? Is it systematic? Your view on 
that? And then I'll yield to my colleague, and then I'll come 
back to some additional questions.
    Mr. Gergely. First of all, of course, this is a major 
decision from the European Court of Human Rights. And it has a 
major impact on this topic. I have to say that there are 
several similar cases pending before courts in other countries 
as well. And I would only name the Czech Republic, for example, 
where there are a couple of cases pending before the national 
courts. Last year there was a successful case before the 
supreme court which acknowledged this. And a victim had 
received compensation. There is a similar situation in Hungary 
as well. There are cases before national courts pending until 
now. And also, as you mentioned, there are several cases 
pending before the European court.
    Now it is quite difficult to state whether this phenomenon 
is systematic still. But what is clear is that, in several 
member states, there is a lack of ensuring a process of 
compensation for victims of sterilization. We have to say that 
many of these victims were sterilized during the communist 
regime, so before '89. And they could not raise those cases at 
the time.
    Mr. Smith. Like in China, where women are routinely 
forcibly sterilized.
    Mr. Gergely. So--yeah. We have to take into account and--
that in several countries, there are time bars. So for a 
victim, it's really difficult to raise a case now after 20 
years. So I think that what we need here is from the 
governments to take a positive step in--to ensure, on the first 
place, a compensation procedure for the victims; and secondly, 
to ensure that such acts will not be repeated anymore--meaning 
that you have to have a full and informed consent when you deal 
with such a situation. Without any consent, we cannot speak 
about--right.
    Mr. Smith. Well, you know, and just for the record, in 
places even like in Mexico, there are hospitals--they call them 
social security hospitals--where women, particularly indigenous 
women, give birth. Unknown to them, they--in some cases they've 
gotten tubal ligations. In other words, they've been 
sterilized. And I'll never forget--in work that I was involved 
in in Peru and still am--upwards of 100,000 women were 
sterilized, many of them at health fairs, when President 
Fujimori erroneously thought that one way to combat poverty was 
to eliminate the possibility of poor people giving birth to 
children who might be poor as well--a bit of a presumptuous 
thought to begin with.
    And I actually held a series of hearings on it, and it was 
amazing: He took his impetus for that from the population 
conference in Cairo, that you need to adopt a sterilization 
mentality, and quickly crossed the line from voluntary 
sterilization to forced. And it was--it was awful. And so I'm 
glad you're very much on the forefront of trying to prevent and 
to provide compensation for those who have been so harmed by 
the government.
    Oh yes, Mr. Mirga.
    Mr. Mirga. I will just say that we do not see that there is 
something like a systemic continuation of sterilization. I 
think that the cases which were brought up very much 
contributed to raise awareness, which is important. We still 
need to get to the compensation issue. This is another step to 
be made. There are some cases of the national courts which 
recognize also that sterilization against Roma women. And that 
is also very important, that it's not only from the European 
level court, but also from the national.
    So I believe there is a step forward, but we have to push a 
little bit farther to fully have--those who are doing this 
responsible for these acts. And compensation should follow.
    Mr. Smith. Robert? Great. I yield to Commissioner Aderholt.

 HON. ROBERT B. ADERHOLT, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Thank you, Mr. Chairman. Thank you for your testimony here 
today and for your presence. One thing that we hear concerning 
this issue that was [inaudible] hearing is, we hear from a lot 
of extremist parties anti-Roma sentiment. But many examples of 
anti-Roma statements come from public figures associated with 
what we'd call normal parties or mainline parties across 
political spectrum. My question would be, has extremism against 
the Roma gone mainstream? And can you give us a more nuanced 
understanding of this phenomenon.
    Mr. Mirga. Thank you. Well, we see a danger that rhetoric--
anti-Roma rhetoric which pays can be adopted also by mainstream 
parties. And this is kind of approach to pre-empt, maybe, the 
support for the extremists, so you are bringing in some kind of 
rhetoric to attract more voters during the elections. we 
observe that some of the mainstream parties or leaders or 
member of the mainstream parties using the same, sometimes, 
language as it was in case of extreme-right parties.
    So it becomes more tolerable to speak the language which 
usually we associate with extreme. And this is something really 
worrying. Whether this is a pre-empting something or new 
strategy to get more votes, or simply people feel more free to 
speak racist language because they do not meet a strong 
reaction from the public or condemnation--this is something to 
discuss. But we see this kind of phenomenon present.
    The second thing is that we see in Europe a tendency or 
trend that extreme parties are winning. They are getting more 
votes. Finland, for example--
    Mr. Aderholt. Did you say Finland?
    Mr. Mirga. Finland, yes; and nationalist extreme-right 
party made some winning. U.K., for the first time, extreme 
right get into Parliament. we already talked about. So in the 
number of countries, you can notice this trend that those who 
are playing with anti-immigrant, anti-minority, anti-Jew, anti-
Roma, anti-Muslim--they are getting votes. This pays. And this 
may be attractive strategy for mainstream parties, because they 
may become losers. They will--if extreme will win, they will 
lose. So they have to think how to eventually--what kind of 
strategy they have to develop. The easiest seems sometimes for 
some of them to be a little bit radical and play for these 
voters who are in the crisis trying--maybe because of the 
crisis they are getting a little bit more sensitive to extreme 
rhetorics.
    And this is worrying. And we saw first kind of test case in 
Hungary in 2000 during the last local--parliamentary election, 
when they get like 15 percent of votes. We are now approaching 
Slovakia's elections. SNS already is playing with anti-Roma 
rhetoric openly. But we are also hearing mainstream politicians 
who are talking similar language.
    And this is really concerning. This is something which is a 
danger, because it's like a disease. You can maybe think that 
this virus--you are strong, you can overcome it. But maybe this 
virus will cause a damage to you. So we have to warn a little 
bit mainstream politicians about the way they think they can 
play at politics in future. This is a danger.
    Mr. Aderholt. OK. Yes, could you?
    Mr. Gergely. If we would go back in time for 10 years or a 
bit more, we would see that what was different from today is 
exactly the political discourse or politics in general. If you 
are looking now into what is happening in several European 
countries, we would very clearly see that politics has been 
deteriorating a lot. Now, there are many things which we have 
to consider. Anti-Romani sentiment or anti-Romani prejudice was 
all there. Twenty years ago it was the same high level of anti-
Romani sentiment.
    But now we see a gap which has been widened between the 
situation of the Roma and the majority of the population. We 
have the economic crisis. The economic crisis in Europe has 
affected the majority of the population, but had a much greater 
impact on the vulnerable groups and in particular on the Roma 
communities. This widening of the situations, this big 
difference is fueling prejudice, rejection, exclusion of this 
minority--the Roma minority in particular.
    Now, the economic crisis is playing an important role in 
terms of the feeling insecure as a mainstream citizen. You 
cannot feel but insecure about what is happening. Having this 
situation, there is an erosion of trust in governments, there 
is a lack of trust in the political environment. So the parties 
have to find something in order to counterbalance this erosion. 
So what is that? It is exactly on minorities, immigrants, 
criminality, Roma.
    Playing--putting this issue on the table in terms of 
political debate and mixing up with the insecurity of the 
majority of the people, it seems that it works, it pays votes. 
So we have the case of France, when mainstream government 
representatives have been involved in anti-Romani rhetoric. We 
have the case in Italy where the same--mainstream government 
representatives have been involved in anti-Romani rhetoric. And 
then we go to Central and Eastern European countries--Czech 
Republic, Hungary. In Slovakia now, for example, in the 
political debate--in the political campaigns we can find 
banners on the streets: ``How long do we have to pay for the 
Gypsies?'' This should stop. So it is an issue for political 
campaign. And if 15 years ago only extreme right parties or 
extreme right movements were playing this card, now it is 
played by the mainstream as well because, at the end of the 
day, it pays votes.
    Mr. Aderholt. Thank you. Thank you, Mr. Chairman.
    Mr. Smith. Commissioner Aderholt, thank you so very much. 
Let me just ask a couple of final questions and then ask you if 
you have any final comments you'd like to make.
    Mr. Mirga, you mention that there is a need for more Roma 
in police forces. I would just note, parenthetically, there may 
be a model that needs to be replicated throughout all of 
Europe, and that's Northern Ireland. I actually chaired 11 
congressional hearings, including--in the Subcommittee on Human 
Rights, which I chair, and our Commission here, on the need for 
integration of Catholics into Northern Irish police force.
    It used to be called the RUC, the Royal Ulster 
Constabulary. And Mr. Patten, the foreign minister for the EU, 
former--very distinguished career--authored what was known as 
the Patten Report that made sweeping recommendations to London 
as to what they needed to do to make that police force more 
responsive. And I always argued that I felt that was the 
Achilles' heel. You don't get peace if you don't have a police 
force that's fair and unbiased, professionally trained, has a 
human rights focus to it.
    And I'm wondering if there's any attempt to try to take the 
Northern Irish model and replicate it elsewhere, because they 
have recruited very fine officers in the Catholic community. 
And now that force is working very cohesively. If you ring up a 
policeman you're not going to get somebody who might commit a 
human rights abuse--although there are bad apples or bad 
policemen in any police force--but not based on sectarian 
issues, or at least it's less likely now. And I'm wondering, 
has there been a look at the experience in Northern Ireland? 
And secondly, what countries are getting that right and 
bringing Roma into the police force?
    Mr. Mirga. Two years ago, together with SPMU from Vienna, 
we published a booklet on police and Roma--building trust 
between police and Roma. It contains a lot of good practices 
collected from various countries about what police can do in 
multiethnic society, how they can increase representation of 
minorities in the police forces. So a higher end example 
probably is also included there.
    What we are trying now to do is to promote this booklet and 
to launch in national languages. We had already two such 
launches--one in Romania, one in Hungary. When we were on the 
field visit in Hungary we were paying attention to the issue of 
representation of Roma in police forces, especially because we 
had this number of killings there. And we were meeting with 
Roma as well who are police officers. At the time when we were 
in the field--on the field visit, the spokesperson for Roma--
for national police was a Roma himself--a young, Roma police 
officer.
    In Vienna where we were launching the book we had three 
Roma officers--one, and this spokesperson of the police from 
Hungary--policewoman from Hungary, and Roma officer from U.K., 
from metropolitan police. And he was a Czech Roma who migrated 
to U.K. And there he became a police officer--the first ever 
Roma officer in the police force in U.K. So we have some of 
their examples.
    In Hungary, for example, there is around 300 Roma in the 
police force. It's a significant number. However, and 
paradoxically, in this country we had this series of attacks. 
During the elections, in this country, a trade union--the 
police trade union--has agreement with Jobbik to support 
Jobbik. So this is kind of a confusing messages, coming from 
police forces--kind of exceptional situation.
    In some other countries--in Romania, there is number of 
Roma in the police forces as well, but less than in Hungary. 
Some Roma are in police forces in Bulgaria, but not much. So 
this is something which should be encouraged and bring in more 
and more--and to have Roma and career--open career for them to 
be done. And this can contribute, of course, to the improvement 
of the integration of Roma into society. So this is something 
still ahead.
    Mr. Smith. Let me just ask you, with regards to countries 
like Germany that continue to deport Roma to Kosovo 13 years 
later, where the prospects of reintegration--unless it's very 
carefully done could be a very, very painful experience, and 
especially when you have forced repatriation being a part of 
it--what is the status of that? Is Germany and others still 
doing that? And what happens when that person who was forcibly 
repatriated arrives in Kosovo?
    Mr. Mirga. Two years ago there was a briefing in the 
Bundestag. I was part of this briefing on the situation of Roma 
of Kosovo and about the policy of Germany vis-a-vis those who 
are in Germany and supposedly should be going back. Our 
official position was that while Germany has a right to do what 
they do, because there was agreement--temporary protection was 
provided after the conflict there--to victims of the conflict 
including Roma and when they considered that there are already 
safe conditions in Kosovo, so they should be going back.
    We were saying that maybe it's a premature action. It's 
maybe not right timing. There are still tensions there, 
economic opportunities for those who return are very minor. So 
in fact, the decision to send them back, puts them in very bad 
situation after return there; the second--those who are 
returned may not be going to Kosovo itself, because some of 
them were asked where they want to go--to Belgrade or to 
Pristina? Most of them are choosing to go not to Pristina, to 
Belgrade.
    When we were trying, for example, to identify Roma who were 
returned in Kosovo, it was very difficult to find people 
because they were already not there. So maybe the policy of so-
called voluntary or forced return is not effective at all, 
because people stay 10, 12, 13 years in Germany, living there, 
have their networks there, being with families, suddenly 
deported. They will try to find a way to go back.
    We were visiting also Roma communities in Mitrovica--
southern Mitrovica, which is rebuilt now. U.S. also leave some 
funding for rebuilding and closing in the--And again, we are 
trying to find the people there from Germany, whether they are 
there. We found one person, a young 20-years-old man who spent 
half of his life in Germany, spoke perfect German, and who 
suddenly was taken, put on the airplane and send back. And he 
was completely lost in this environment. All his family and 
friends are there. So what he is doing here.
    So my conviction--my point--my view is that Germany should 
rethink its policy, disregard that there are some agreements 
they are entitled to do this. It might be not effective. On the 
other hand, in Germany there is a movement among the Roma and 
supporters to argue to have them stay in Germany. Romani Rose 
is one of the leading Roma activists in Germany who is 
advocating for this also with the government. So there is a 
hope maybe that some of them may stay.
    Mr. Smith. Commissioner Aderholt.
    Mr. Aderholt. Yeah, Mr. Chairman, if I could interject for 
just a minute. I am between meetings, this is--I've been at a 
hearing all morning. It's really been a crazy day for hearings 
on the Hill today. But before I do slip out I did want to ask 
about two countries in particular, the next likely candidates 
for NATO membership: Montenegro and Macedonia. What is your 
assessment of the situation of the Roma in those two countries 
just briefly?
    Mr. Mirga. As regards Macedonia, there is a significant 
Roma population, contrary to Montenegro--there is very tiny 
Roma community, though in Montenegro you have a large number of 
Roma from Kosovo who left around--over 4,000. And they are 
still living in camp where are very bad conditions.
    In Macedonia, you have, as I said, significant Roma 
population which benefited, paradoxically, from the crisis 
which was in beginning of 2000 with Albanians. There was the 
agreement, and agreement requires minority communities to 
benefit for equitable representation in public office, in 
employment. And that pays also to Roma, not only to Albanian 
minority have--I should not say minority.
    So because of that, you may see Roma represented in many 
offices of the government and authorities. So in Macedonia 
there is actually a minister, a Roma, in the government; there 
is a deputy minister, another Roma; there are several directors 
in various departments. So in this sense, Roma benefited 
because of the agreement, because it goes to all the 
communities in the country.
    Another thing is what is the situation of Roma in terms of 
social, economic, human rights and so on? This is a little bit 
different. We have a big municipality--Roma municipality in 
Skopje. It's over 30,000 people with a mayor, council, built up 
by the Roma themselves. So Roma, visible in the country. They 
are represented in some offices--not yet to the level they 
should because there's a percentage which it was not reached 
yet. But this is something progressing.
    Comparing this with Montenegro, well, they started just now 
to have a Roma council. And there is a consultation process 
with the Roma. There was a new census which included Roma and 
we know a little bit more now how many Roma are there. This is 
important because of the representation eventually in the 
parliament. If you reach some threshold, you can have 
representation in the parliament. So this is something evolving 
also with regard to representation.
    There are few educated people, though, in the country--
around 20. They're educated and they are not working sometimes. 
So one of the issues which we raised with them--with the 
government is that as an example of positive, perhaps to act as 
a role model for others to follow in education, they should 
give some jobs to educated in the country. So we see some Roma 
who will be selected probably by the government to take some 
positions.
    So as I said, main problem now for the Montenegro Roma 
population is Roma in the camp which is a big one in 
Podgorica--Konik camp, over 4,000 people living on the dump. 
You mention sometimes the dump; it is live at the dump and they 
are there of course surrounded by other people as well, but the 
conditions are dire. So there is an effort a little bit now to 
improve the living conditions there. A commission is ready to 
put some money for rehabilitation, but we have to see how it 
will evolve in next years.
    Mr. Aderholt. That's very helpful, thank you. Would you 
like to add something?
    Mr. Gergely. Yeah, I would--just a few things about 
Macedonia. In terms of positive developments, we might mention 
that the government has acknowledged the situation, has adopted 
a policy for improving the situation of Roma. And another thing 
is that, as positive practice--is that Macedonia adopted a law 
for legalization of property rights, which might be of high 
importance for Roma, because that means legalizing informal 
settlements or providing recognition of property--land property 
for Roma. So from this point of view, Macedonia is a good 
example to be mentioned.
    It would be very interesting to follow up on the process of 
the implementation of this law, to see exactly if the Roma 
would benefit from this law in terms of recognition of 
properties, because you may know that housing is an outstanding 
issue for Roma communities. They live in informal settlements. 
Most of the times local authorities, they do not recognize the 
properties, the land--in particular land properties. So this 
law could be of high importance for Roma.
    On the other hand, in terms of the human rights situation, 
there are as well a couple of areas where Macedonia has to 
improve. It's not only the employment, education, health; but 
in terms of law reforms--for example, the legal framework for 
protecting against discrimination still has to be improved. In 
education there are a couple of cases where the Roma children 
are enrolled in special schools for children with intellectual 
disability, even though they are not disabled. So there are a 
couple of issues where Macedonia has to still improve.
    Mr. Aderholt. Thank you very much. Thank you, Mr. Chairman.
    Mr. Smith. Thank you. Mr. Gergely, can I just ask you--I 
chair the Autism Caucus here in the United States, and actually 
wrote the law in '98 and just did it again last year to put 
considerable money into autism best practices. And early 
intervention--beyond anything else that we might do, 
particularly in age two or three or four, and the earlier the 
better--can have a tremendous impact on whether or not that 
child has a better life as he or she grows into adulthood.
    I'm working closely with some Europeans and the European 
Parliament on autism. It's a big problem there. I just chaired 
a hearing last year on global autism, and the estimates are 
that there are some 67 million people worldwide who have--are 
somewhere on the Asperger--either severely autistic or 
moderately. And it's just an emerging problem that we're not 
sure what the trigger is, and there may be multiple triggers.
    But it seems to me that autism--especially as it is all 
over Europe, all over the United States, has to be a problem. 
And many kids, children in--who happen to be Roma, might be 
further disadvantaged because the early intervention 
initiatives are not available to them. And I'm wondering if 
there's been an effort to include them.
    Education per se for Roma children is substandard because 
of inadequate response by governments anyway. But this is above 
and beyond because it--testing needs to be done. You know, just 
a general sense of, why is my child not behaving the way he or 
she ought to, may not trigger the response. And if those social 
services are not there--and if the educational establishment is 
not working to help those kids--they are further disadvantaged. 
Your thoughts on that?
    Mr. Gergely. Well, this is an outstanding issue for Roma 
children as well. European Roma Rights Center was involved in 
lodging several complaints on behalf of Roma children before 
the European Court of Human Rights. And we have some--a couple 
of decisions, one against the Czech Republic, one against 
Croatia. There is another decision against Greece. And there 
are several examples of cases before national courts--Romania, 
Hungary.
    It seems that it is a practice to enroll Romani children in 
separate classes, separate schools or special schools for 
mental disabled children, in the absence of any medical record 
that this children would need a special education, a special 
attention, paid for. What we are advocating a lot is that 
Romani children have to be enrolled in mainstream schools. The 
practice of segregating Romani children--either in segregated 
classes, segregated annexes to the schools or special schools--
has to be ended. And the decisions from the European court are 
in this regard.
    The problem is that, in a lot of member states, there is a 
lack of reform in the educational systems. The governments are 
a bit reluctant in reforming systems. Czech Republic is maybe 
one of the cases where we had a decision from 2007, and the 
government--it's still struggling in reforming the educational 
system after five years from the decision,when the government 
had to reform its system on the basis of the court's decision. 
And still that is not the case. So we have several situations 
in other countries as well. Unfortunately it is a practice in 
Europe to put Romani children in segregated spaces, I would 
say.
    Mr. Smith. Could I ask you, with regards to autism, whether 
or not there has ever been a surveillance? And again, going 
back to 1998, I introduced a bill that was signed into law in 
2000 that required the Centers for Disease Control to set up 
centers of excellence, as we call them. And it really came out 
of case work in my own district, where we thought we had a 
prevalent spike in Bricktown, New Jersey. And when we started, 
or they started, doing their data calls, they found out that 
other municipalities had a similar rise, inexplicable. And we 
went from believing that the prevalence rate in the United 
States was three out of every 10,000 children to one out of 
every 110.
    And I'm not sure--if they're not part of the surveillance, 
large numbers of Romani children could be left further behind 
because their autism has not been discovered and early 
intervention and other--I mean, segregation for a severely 
autistic child is required, as long as they're getting service 
that is commensurate with the problems that they face, so that 
they can become better-functioning. But if it's done just to--
as you are clearly saying--to separate in the way that African-
Americans were separated in this country years ago, through 
laws that were just to set apart--that's prejudicial and 
discriminatory and certainly totally unethical. But I wonder if 
that's been even looked into the way it ought to be.
    Mr. Gergely. It was not substantially looked upon, but the 
other problem is also the lack of proper testing procedure when 
they are applied through Romani children, because this is where 
the problem starts. They are enrolled in special schools 
without being properly tested. So basically they are tested--
they are enrolled on the basis of a social-economic 
disadvantage, not on the basis of a medical ground. This is 
what is happening.
    Mr. Smith. You know, just to--point for pondering: We're 
pushing more police understanding of what a severely or even 
moderately autistic child might be experiencing, because that 
child--as he or she becomes an adult--might fly off the handle, 
and a cop will respond in a way that then leads to an 
altercation.
    The child gets--young adult--incarcerated, and they're 
dealing with a disability that made them prone or almost 
predetermined--given the right trigger--to respond negatively 
and then go to jail. So we have children--young adults, I 
should say--in our own jails who shouldn't be there, who are 
really--medical issues that went unaddressed. And I'm sure 
they've got to be occurring within the Romani community.
    Let me just ask one final question, and then yield to Erika 
Schlager, our expert. You know, one thing about the--and you 
know this, I think--about this Commission is that we are 
blessed with very, very talented and effective staff who make 
it their business, 24/7, year in and year out, to know, 
understand and work the issues, including the Romani issue--
human rights issues. So I will yield to her.
    I just want to ask one final question on trafficking. In 
your report, Mr. Gergely, you make it very clear that--and this 
is just one fact that you have in there--24 percent of the 
Romani trafficked persons interviewed in this study, the 
``break into silence'' study, had been in contact with the 
police, and only one case resulted in the imprisonment of the 
perpetrator.
    You point out in the study, the overwhelming lack of 
support available to Romani trafficked persons negatively 
impacts the ability of many to re-integrate, leaving them 
highly vulnerable to re-trafficking. And of course that is true 
anywhere; it's true here. When they don't get the kind of 
services that they need, soon as they're back out on the 
street, if you will--even if rescued, the traffickers are 
waiting there to re-enslave them.
    And you also in your recommendations say that there needs--
and this would be to you, Mr. Mirga--to promote networking 
between Romani NGOs, Romani mediators and Romani community 
representatives to law enforcement and anti-trafficking 
authorities, to combat trafficking in Romani communities.
    And I'm wondering, since all of our countries now have 
plans of actions--or at least almost all, including the OSCE 
space--are they looking to put that piece in, so that the 
Romani--who are disproportionately trafficked--have those re-
integration services available to them, so they're not enslaved 
a second and a third and a fourth time?
    Mr. Gergely. Well, as I said before, the problem is that, 
in several countries, this is not acknowledged as an issue. So 
therefore you do not have a policy which addresses this. That's 
why we recommended in the report that there should be a 
networking in place--meaning cooperation between the 
communities and the law enforcement. This unfortunately is 
lacking because the law enforcement doesn't see it as an issue 
which has to be tackled in a particular way. But this is apply-
able to other areas, unfortunately.
    Mr. Mirga. Yeah. I think that one of the issues which 
should be raised here is neglect. Neglect, yes. And this goes 
in many other areas. Not only in the issue of law enforcement 
and care about something like victims of trafficking. Because 
if they identify something like a Roma, well, this is kind of 
less an issue. Similarly with education why Roma children are 
not in the school, and there is obligation for having them in 
the school. Sometimes school authorities just neglect their 
obligation to control and that they should be in school, not 
outside of the school.
    So in this way, we can see that Roma are sometimes a 
second-class citizen whether in the situation of victims or in 
the situation of children who should be in school. And we see 
this in many places. And so something like--if we expect Roma 
to be included into the society, we should--and be treated 
equally or sometimes even positive discrimination applied--we 
have to of this kind of negligence--of neglect, closing eyes on 
the issues.
    And we should apply strongly the existing law. If there is 
a convention of child protection--if there is a law which says, 
until secondary education a child has to be in school--
authorities should enforce this, not just neglect--because you 
are Roma, we don't care what you do. So this is one of the 
source of being left out completely in many situations, 
including, trafficking.
    The second about--thinking about trafficking, I think we 
already pointed out that there is a real lack or a little bit 
of real commitments to fight against. I know the situation in 
some of the countries where--because of the pressure from 
outside, and providing funding--there were many agencies 
created to deal with anti-trafficking. But when you try to push 
to get some data, what has been--how this was effective to 
prevent trafficking, you cannot get positive results. It's 
simply--the procedure is continued, and you do not see positive 
results. So that is what is concerning: multiplying agencies 
and institutions which absorb funding, various funding from 
donors, let's say--but you do not see a real progress in 
stopping the process.
    Mr. Smith. I'd like to yield to Erika Schlager.
    Ms. Schlager. Thank you, Mr. Chairman. Two years ago, at 
the time of the murders in Tatarszentgyorgy, in Hungary, there 
was I think quite a lot of shock at the brutality of the murder 
of the father and son there. And two prominent Romani Hungarian 
public officials spoke to this. Florian Farkas warned that 
Hungary could be headed towards civil war, and Viktoria Mohacsi 
said Roma would have no choice but to arm themselves or flee. 
Without limiting yourself to Hungary--that is, speaking more 
broadly to this phenomena in Bulgaria, the Czech Republic, 
elsewhere--how do you view the prospect of interethnic 
violence? Thank you.
    Mr. Mirga. I think that, in the situation like we had in 
Hungary, first reaction was to escape. You had a rise in people 
who were migrating, Similarly, in Czech Republic, we had a 
crisis where immigrants were going to Canada; Canada had to 
introduce visas. Now we have again similar things in Western 
Balkans, when you have significant number of Roma asking for 
asylum, claiming the situation.
    So I think first reaction is to avoid something like being 
targeted by some groups, by extreme, and leave. The second--if 
this is not a way out, and you have to stay--so the potential 
for some--I would not say interethnic conflicts, but 
victimizing the weaker, because Roma are not strong enough to 
stand up. So more kind of a violence against the Roma may 
happen. And we warn that--against that, especially in the 
context of a continuing crisis, where you will see more 
austerity programs which will impact welfare transfers to Roma, 
who are mostly dependent on welfare.
    So you may see this kind of situation where Roma can be 
victimized by majority, because there is a growing resentment 
against the Roma, built up by some elements in society. I 
would--in my view, I would not see this like a real conflict 
like we had with--let's say, between Albanians and Macedonians 
in Macedonia, or like a real civil war. But more like something 
which the weaker will be suffering more. So that's what I feel 
may happen more often.
    Mr. Gergely. What I would add is that the environment now 
is very critical. The economic crisis in Europe on one hand, 
the deterioration of the political environment, the gap in 
terms of social and economic situation of the Roma--these 
factors put the Roma community at a high risk. Of course that--
when we see all these manifestations against the Roma taking 
place in several countries, when the political environment is 
changing--unfortunately not in a very positive way, but rather 
on negative way--you cannot but wonder where it would lead to.
    So I think that the sentiment of the Roma communities is 
not a safe and a secure sentiment. It's one of insecurity; it's 
one of lacking the feeling of being protected. So it is 
extremely important that when member states are addressing the 
issues of the Roma communities, they are not focusing only on 
economic or social perspective, but rather they see it as an 
interdependent process with assuring human rights.
    If human rights are not protected, if you do not have a 
human rights-based perspective which is mixed with the social 
and economic perspective, and without having an inclusive 
approach, as long as we keep the Roma communities outside and 
the majority of the societies on the other side, we will never 
reach to a common ground, but we will be all the time parallel 
without reaching anything.
    So I think that the member states has to really see this 
danger which is there. And they should really put together this 
economic and social perspective, ensuring human rights 
protection. That's the most outstanding issue now.
    Mr. Mirga. Just to add something with--to the question. We 
see something which is completely new--mass protests against 
the Roma, It never happened before. We had eventually a 
community of violence, local community was against Roma 
community. That happened many times in many places since 
transition. But to have somehow mobilized a large number of 
majority and have them going outside on the streets to protest 
against the Roma, this is something new. And this very 
worrying.
    Something new is also how extreme right is organizing 
people. In North Bohemia, these groups are organizing protests 
and they are joined by normal citizens, young people. And these 
organizations are small, but they are mustering to have several 
hundred or thousand people going against the community against 
something--something new. And that never similar things were 
happening in the past. And this shows the direction of how 
things can evolve.
    That, as I said, you may have this kind of victimization of 
the weaker in this relationship, Roma-majority. And we have to 
speak up about this. We have to raise awareness about this. We 
have also to ask U.S. to react to this. Governments have to 
realize that protection of the communities, the first, and to 
diffuse this kind of action which are undertaken by some 
elements of the--of the majority.
    I would like to, for example, to appreciate steps made by 
Bulgaria when the riots started and these mass protests were 
organized in several cities, they arrested several hundred 
people. And after, we do not hear any more about such organized 
protests against the Roma. Also, what is positive thing--during 
the local elections, Ataka--they didn't do well, they lost. 
They had over 200-something councilors in the local elections 
in the previous time. Now, they have much less, like one-third 
of this.
    So maybe either population or politician understood that 
such an aggressive anti-Roma politics is not anymore right and 
it's not so society didn't buy it in general. So I would like 
to encourage this kind of freedom, unwavering opposition of the 
leadership of the government, of the president, leaders of the 
mainstream parties which stands on principles and they saying, 
``This is not acceptable; we condemn this,'' in a uniform 
voice. And that's also what we would like to see happening from 
the U.S., that these strong messages about the principles are--
should be going straight forward to a number of countries.
    Mr. Smith. Mr. Gergely, is the United States--from the 
president to the vice president, secretary of state--speaking 
boldly enough, with enough specificity to--on the Roma issues--
to our European friends?
    Mr. Gergely. Yes, they are. I mean, the state secretary, 
Hillary Clinton, has a history in taking firm standing on Roma 
issues. Of course, having a similar message from the President 
of the United States would be something which would very much 
have a very clear and outreaching message to the European 
countries--
    Mr. Smith. Has he mentioned it? Has the President of the 
United States mentioned it?
    Mr. Gergely. Not yet. But it would be something----
    Mr. Smith. Sure.
    Mr. Gergely. ----which would give a strong message for 
the--for Europe, I think----
    Mr. Smith. Right.
    Mr. Gergely. ----in terms of protecting human rights for 
minorities. We are looking very much forward for U.S. to have a 
similar standing and a position on Roma issues, as it was until 
now.
    Mr. Smith. Thank you. And I do have one final question. The 
World Bank in a report suggested that if there was full 
integration of the Roma community into the labor market, that 
about a half a billion euros per year--annually, obviously--for 
some countries would be the result, of positive consequences. 
So it's not just a human rights issue, a humanitarian issue, 
and a simple justice issue. It's also a very positive economic 
issue if full integration were to occur. And I'm wondering is 
that appreciated by governments, that they're missing out of a 
positive economic benefit for the rest of the community if they 
were to integrate?
    Mr. Gergely. What I would say is if we look around in 
Europe we would see that a lot of political commitments have 
been in place in terms of improving the Roma situation, a lot 
of governments have adopted policies for improving the Roma 
situation. But unfortunately, the governmental commitments 
which we're undertaking have been dissoluted at local level, 
which shows that in practice having a commitment is not enough.
    On the other hand, when the governments were adopting 
policies for improving the Roma situation, what they were 
missing to put there, beside the commitment, was the financial 
resources for implementing those policies. So of course, in 
order to ensure employment, you need resources for providing 
trainings, for providing education, skills, and so on and so 
forth--jobs, market, formal market. It's not--it's not easy at 
all. It is a long process. It takes time. But unfortunately, 
the governments are not committing their resources for 
implementing such policies.
    Now there is a lot of expectation from the European Union, 
because the European Union has adopted the framework 
communication on the policies. Now all the member states are 
expected to develop and to have the policies for the next 10 
years. There's a lot of emphasis on the financial resources, 
because the union has the financial resources in place. The 
only thing is that the member states have to apply for it. You 
have to request, have to have the capacity.
    The reports from the European Union shows that the European 
funds absorption rates from the states are extremely low. With 
other words, the states are not able to absorb the financial 
resources which the European Union puts in place. So now the 
question is if the member states are absorbing less than 30 
percent of the available funds, how would they would be able to 
absorb funds for Roma strategies? So the outstanding question 
here is whether the states are able not to put their own money, 
but to get the money from the union in order to implement the 
policies for Roma.
    Mr. Smith. Mr. Mirga.
    Mr. Mirga. Just to comment on your question, I think it is 
very valid argument, financial one, that governments is losing 
and because of large work power which is not utilized at all, 
to some extent of course because still if there is no will, 
this argument will not work. Politicians, government may just 
listen to, but they are not ready to, first, to invest to get 
after what is the return. If you have a, let's say, sometimes 
80 percent of people not working, so how to mobilize these 
people if they have no skills, no education?
    So what we are saying, you have to adopt a long-term 
perspective. You have to start with early education of new 
generations, because if you will not start early and prepare 
the children to be equal with others in the school, they will 
never finish high school, they will never finish universities. 
And now education is a key to enter labor market. And there is 
a competitive labor market. Some place people are young, 
educated and they are without jobs. In some countries, it's 
like 40 percent, 50 percent of young people without jobs. So 
imagine now Roma, who have 1 percent educated and they are 
discriminated, how they can enter the--such a competitive 
field. So in order to really solve the issue, you have to have 
a long-term start from the beginning, invest this money and 
expect that maybe in 20 years there will be some return.
    So the argument that now you can lose many money because 
they are not involved in may not work with many politicians at 
the moment. So our hope is that, especially in the time of 
crisis where Roma even more are limited to take income and 
jobs, what we can argue is do more with education, right, 
starting from the beginning--
    Mr. Smith. Are there countries that provide the proper 
incentives--scholarships, for example--that do better than 
other countries, particularly for higher education, so that 
those marketable skills can be learned?
    Mr. Mirga. Well, there are some countries who provide 
scholarships, yes.
    Mr. Smith. Who would you say is best? You may not want to 
say, I understand.
    Mr. Mirga. The best? Well, I can say some positive steps 
are taken in Poland, for example. We have a scholarship system 
since already for six or seven years. Each year we have like 50 
students supported from the budget. They are receiving monthly, 
like, 150 euros. So this is a significant help. This is a 
significant support. We have in Hungary a scholarship system. 
We have in Romania reserved seats at the universities.
    So there are a number of good--but it's still small-scale 
project. It should be more. But you have to do also not at the 
only at the level of university, you have to take care that 
there is more children going through the system and reaching 
university. Now is very small percentage which is able to pass 
through education and to reach university.
    Mr. Smith. You know, one of the greatest trainer of skills 
in the United States and I guess--I would suspect Europe as 
well--are the U.S. military, our armed forces. How accessible 
are the militaries of respective countries to Romani young 
adults who want to enlist?
    Mr. Mirga. I think--what I know about some countries is 
like, for example, in Central, Eastern Europe in former 
Czechoslovakia, yeah, army was a kind of a space where you can 
make a career. Some of the leaders, present leaders, were rank 
officers in the army. I don't know what is now at the moment, 
whether it's still such openness, but I don't feel that it not. 
At that time, it was much easier to be subscribed to army and 
eventually some prospects was--
    Mr. Smith. Is there any attempt on the militaries to 
recruit among the--
    Mr. Mirga. This I don't know. How it is--whether or they 
are active, yeah, they are reaching out the community, here I 
cannot say. It's similar probably like in police; you may have 
some declarations, but openness of the forces are sometimes not 
so. And there are also some inhibitions on the Roma side we 
have to be clear about as well to be in police, for example.
    Mr. Smith. I want to thank both of you. If you would like 
to make any last comment but--I'll give you the last word--but 
you certainly made many very important and incisive 
recommendations. Your commentary will be very widely 
disseminated. And it helps us to do a better job. And I am 
deeply, on behalf of my fellow commissioners, grateful to you 
for your leadership and for taking so much time out of your 
day, and really couple days, to be here to provide us that. So 
I thank you. If you would like to just make any final word or 
we'll just conclude.
    Mr. Gergely. I would just like to thank you for giving the 
opportunity of my organization to have this statement here.
    Mr. Mirga. I would like maybe to make some short statement 
about the ODIHR and our cooperation with the EU.
    Last year, we were working closely with the [inaudible].We 
had a number of high level meetings with the government there 
to raise awareness about the needs for concrete action 
regarding Roma in Western Balkans who are in the pre-accession. 
So the pre-accession has to be used differently how it was used 
in the past. But this opportunity was somehow missed, because 
this is at the right time to exert pressure on the governments 
and to do more.
    We were also awarded with the EC grant to do project in 
Western Balkans. It's called Best Practices for Roma 
Integration. And we aim to work with all the countries there, 
including Kosovo, in identifying best practices in five areas 
and will try to implement them.
    In this context, I would like to thank also U.S. for 
supporting financially this project, made some contribution. 
Germany made also some contribution to this money. And we are 
grateful for that. And at the end I would like to thank Erika 
Schlager, a professional staff member of the Helsinki 
Commission. I admire her as she is tireless in all her efforts, 
whether it's in promote Roma rights here in Washington and the 
OSCE area. This hearing is also thanks to her dedication. So 
thank you very much, Erika. Thank you.
    Mr. Smith. Thank you. On that last word, the hearing's 
adjourned. Thank you.
    Mr. Mirga. Thank you.
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Good afternoon and welcome to everyone joining us this afternoon--
particularly to our witnesses, who have travelled here from Europe to 
be able to testify today. We appreciate your dedication to the human 
rights and dignity of the Romani people, probably the most 
discriminated against and disadvantaged people in Europe today.
    Roma, Europe's largest ethnic minority, have faced discrimination 
and worse for hundreds of years. In parts of Europe they were even 
literally enslaved, as late as the 19th century, when our own country 
was battling this evil, and, in the 20th century, were the victims of 
German genocide during WWII--an estimated 500,000 Roma were 
exterminated by Nazi Germany and its accomplices.
    In 1990 hopes for the democratic transitions underway were 
enormous--and the OSCE was likewise optimistic that it would play its 
part in ensuring that Roma would be equal sharers in the benefits 
freedom, democracy, and the free economy would bring.
    But the 1990s were difficult years for Roma, who were faced with 
pogroms, murders and other acts of violence, and police brutality. With 
a view to that violence, I wrote to then-Assistant Secretary for 
Democracy, Human Rights, and Labour Harold Koh regarding Romani human 
rights and religious freedom--and urged the State Department to be sure 
that these issues were fully covered in the Department's annual Country 
Reports on Human Rights Practices.
    The commission became increasingly active on Roma human rights 
issues. In 2002, we held a Helsinki commission hearing on the situation 
of Roma. And that same year, my resolution on improving equal 
opportunities for Roma in education was adopted by the OSCE 
Parliamentary Assembly.
    Although about ten years ago many countries began to implement 
measures to stem the violence, resulting in fewer attacks and more 
accountability when attacks occurred, the sad fact is that these 
positive developments have not been sustained.
    To make matters worse, in recent years there has been a terrifying 
escalation of violence against Roma, prompting to a Helsinki Commission 
to hold a briefing on this issue in 2009. The current wave of violence 
has resulted in horrible fatalities--like the murder of five-year-old 
Robert Csorba in Hungary, who, along with his father, was killed by 
sniper fire when they tried to flee their burning house which had been 
set on fire by Molotov cocktail. There are many cases of horrifying 
violence against Roma: people have been maimed or disfigured for life, 
like the 13-year-old girl in Hungary shot in the face by the extremists 
who also killed her mother, or the toddler known as ``Baby Natalka'' in 
the Czech Republic who was burned over 80% of her body in a Molotov 
cocktail attack. And as we discuss today the anti-Roma mob attacks and 
demonstrations that continue to occur in several countries, we should 
ask: what is the impact on families and children who huddle in their 
homes while a mob outside yells ``Gypsies to the gas!''? Exactly this 
sort of thing is really going on-- in the year 2012 Roma still have to 
face such open savagery.
    Yet at the same time many governments are voicing serious concerns 
about the situation --one of the purposes of this hearing is to ask how 
well the solutions respond to the problem. Every EU country is now 
working up a ``national strategy for Roma integration''--do these 
strategies respond to the real gravity of the danger threatening Roma?
    Likewise our own State Department has prioritized the rights of the 
Romani people, and this has been implemented with real commitment by 
many ambassadors and human rights officers. Yet the Country Reports on 
Human Rights Practices have been uneven and so we will have to continue 
to watch them carefully--they should be a touchstone of our 
government's commitment to the human rights of the Romani people.
    Finally, we should also talk about humanitarian concerns. In the 
post- communist countries, Roma have been the absolute losers in the 
transition to market economies. Last year Hungarian Minister for Social 
Inclusion Zolton Balog said that their situation is worse today than it 
was under communism. Over the past twenty years, Roma have been caught 
in a downward spiral accelerating at exponential rates. While they were 
at the bottom of the social ladder during the communist period, today 
they are often ``off the grid,'' living in shantytowns, urban ghettos, 
or segregated settlements. A UNDP report concluded that Roma in five 
Central European countries live in conditions more typically found in 
Sub-Saharan Africa than in Europe. But can governments really expect to 
make improvements with regard to other problems Roma face--in housing, 
employment, education and so on--if shocking acts of violence continue 
unabated?

Prepared Statement of Hon. Benjamin J. Cardin, Co-Chairman, Commission 
                 on Security and Cooperation in Europe

    Mr. President, at the end of January, something remarkable 
happened: Slovak Deputy Prime Minister Rudolf Chmel made a positive 
statement about Roma. Saying something nice about Europe's largest 
ethnic minority may not seem newsworthy, but it is and here is why.
    The Deputy Prime Minister reacted to an escalation of anti-Roma 
rhetoric in the runup to Slovakia's March 10 parliamentary elections by 
calling on political parties not to play the ``Roma card.'' But more 
than that, he welcomed a landmark decision of the European Court on 
Human Rights holding that the sterilization of a Slovak Romani woman 
without her consent had been cruel and inhuman. He welcomed the 
findings of a Slovak court that concluded Romani children had been 
placed in segregated schools in eastern Slovakia. And he commended the 
human rights organization that had helped litigate both these cases.
    To say that statements like these are few and far between is an 
understatement. On the contrary, officials at the highest levels of 
government frequently perpetuate the worst bigotry against Roma.
    For example, after four perpetrators were convicted and sentenced 
for a racially motivated firebombing that left a Romani toddler burned 
over 80 percent of her body, Czech President Vaclav Klaus wondered if 
their 20-plus-year sentences were too harsh. Romanian Foreign Minister 
Teodor Baconschi suggested that Roma were ``physiologically'' disposed 
to crime. Last year, President Silvio Berlusconi warned the electorate 
of Milan to vote for his party lest their city become a 
``Gypsyopolis.'' And French President Nicolas Sarkozy has explicitly 
targeted Roma--from EU countries--for expulsion from France. The common 
thread in most of this rhetoric is the portrayal of Roma as inherently 
criminal.
    Nearly 20 years ago in the New York Times--Dec. 10, 1993--Vaclav 
Havel described the treatment of Roma as a litmus test for civil 
society. Today, Europe is still failing that test miserably. As 
Hungary's Minister for Social Inclusion Zolton Balog has argued, Roma 
are worse off today than they were under communism. While a small 
fraction of Roma have benefited from new opportunities, many more have 
been the absolute losers in the transition from the commandto- a market 
economy, and vast numbers live in a kind of poverty that the United 
Nations Development Programme described as more typically found in sub-
Saharan Africa than Europe. Endemic discrimination has propelled 
economic marginalization downward at an exponential pace, and the past 
20 years have been marked by outbreaks of hate crimes and mob violence 
against Roma that are on the rise again.
    In the current environment, those who play with anti-Roma rhetoric 
are playing with a combustible mix.
    In the near term, there is the real prospect that fueling prejudice 
against Roma will spark interethnic violence. Before Bulgaria's local 
elections last October, the extremist Ataka party parlayed an incident 
involving a Romani mafia boss into anti-Romani rioting in some 14 towns 
and cities. In the Czech Republic, the government has had to mount 
massive shows of law enforcement to keep anti-Roma mobs from 
degenerating into all-out pogroms; its worked so far, but at a huge 
cost.
    Significantly, Roma are not always standing by while the likes of 
the Hungarian Guard mass on their doorsteps; they have sometimes 
gathered sticks, shovels, scythes, and anything else handy in an old-
school defense.
    Even without the prospect of violence, there is a longer term 
threat to many countries with larger Romani populations: if they fail 
to undertake meaningful integration of Roma, they will find their 
economies hollowed out from within. More than a decade ago, then-
Hungarian Minister of Education Zolton Pokorni said that one out of 
every three children starting school that year would be Romani. Some 
economic forecasts now suggest that by 2040, 40 percent of the labor 
force in Hungary will be Romani. A number of other countries face 
similar trajectories.
    A desperately impoverished, uneducated, and marginalized population 
will not serve as the backbone of a modern and thriving economy. But 
several studies have shown that the cost of investing in the 
integration of Roma--housing, education, and job training and the like-
-will be more than offset by gains in GNP and tax revenue. In order to 
undertake those integration policies, somebody has to build popular 
support for them. And that is where Mr. Chmel comes in.
    Until now, most popular discourse about Roma seems predicated on 
the ostrich-like belief that perhaps they can be made to go away. Few 
politicians have shown the courage and foresight to reframe public 
discourse in any way that acknowledges Europe's future will definitely 
include Roma. Mr. Chmel has taken an important step in that direction. 
I hope he will inspire others.

 Prepared Statement of Andrzej Mirga, Senior Adviser on Roma and Sinti 
                              Issues, OSCE

    Honorable Chairperson, Distinguished Members of Helsinki 
Commission, Ladies and Gentlemen,
    I would like first to express my gratitude to the Chairperson of 
the Helsinki Commission for organizing this hearing on Roma and Sinti 
today. It's a great opportunity to share with you our views and 
concerns regarding Roma and Sinti in the OSCE area with this important 
Commission. It's the right time to address these issues, as some 
developments in recent years are highly disturbing and we need to speak 
up about them.
    I testified here with several Roma friends in mid-2009. It was a 
time when the financial and economic crisis had erupted and we 
signalled the worrying developments that were evolving with regard to 
Roma and Sinti. Today, with fiscal difficulties in a number of European 
countries and a second economic crisis looming, I have to report to you 
that some of these concerns, unfortunately, have become reality. No 
doubt, the ongoing economic difficulties have intensified uncertainty 
and exacerbated some of the negative trends I elaborated upon in the 
briefing in 2009.
    On a general note, let me underline that most problems facing Roma 
and Sinti populations have by no means been resolved and, for the most 
part, this minority has not yet benefited from lasting improvements in 
human rights and social inclusion; this is unfinished business in 
Europe that requires much stronger and longer-term interventions at 
national and European levels. That was one of the conclusions in my 
2009 briefing here, based upon the findings of ODIHR's 2008 Status 
Report on Implementation of the Action Plan for Improving the Situation 
of Roma and Sinti in the OSCE Area. This conclusion is more valid than 
ever today.
    Currently, it seems the requirement for much stronger and longer-
term intervention is widely recognized, as all major international 
organizations and EU institutions are calling upon governments to step 
up their efforts to realize objectives regarding Roma and Sinti social 
inclusion. This is done partly as a response to a serious and dangerous 
rise in violence and intolerance against members of this minority in a 
number of countries. It comes, however, at a time when European 
governments face real fiscal and economic difficulties, making it a bad 
time to approach them on other issues. Governments are facing tough 
decisions on the introduction of austerity programmes to reduce public 
spending and keep national debt under control.
    In the 2009 briefing I mentioned ODIHR plans to conduct a field-
assessment visit to Hungary. We spent nearly two weeks in the field 
there, produced a report with a set of recommendations, and have since 
organized follow-up activities with the Hungarian authorities. Our time 
in the different localities we visited, including those where Roma had 
been attacked, and some killed, provided us with a sense of what was 
going on at the grass-roots level, what people, both Roma and non-Roma, 
felt, and of developing trends. Clearly, the economic gap between the 
majority population and the Roma was not diminishing, there were 
underlying causes for tensions, and feelings of insecurity or being 
threatened by radical groups were high among Roma.
    I claimed also that the next elections in Hungary would be a test 
case for the extreme right's quest for political power and for the 
effectiveness of their anti-Roma campaign. Regrettably, those 
campaigning using anti-Roma rhetoric attracted significant support. We 
see this development as part of a dangerous trend in Europe, with more 
such extreme-right, populist and nationalist groups entering into 
mainstream politics; examples of this trend can be found in a number of 
OSCE participating States. Another test case is approaching with 
Slovakia's parliamentary elections, where one party is already openly 
using anti-Roma rhetoric in its campaign.
    Roma and Sinti migration has become a key challenge, and it will 
likely remain so for some time. The social stigma associated with Roma 
and their visibility as migrants will continue to heighten the risks of 
discriminatory practices and of social exclusion in countries of 
destination.
    In the past two years, in the context of deepening economic 
hardships, we have witnessed a number of disturbing developments. There 
was the crisis related to Roma migrants in France, we have seen the 
rise of tensions with extreme-right or neo-Nazi groups in North Bohemia 
in the Czech Republic, we have seen mass protests against Roma in a 
number of cities in Bulgaria, following the incidents in Katunitsa, 
near Plovdiv.
    In most of these situations we have seen populist, extreme-right or 
neo-Nazi groups actively exploiting anti-Roma prejudice, sometimes 
generating hostility or instigating violence against Roma and Sinti 
communities. We are concerned about current public discourse on Roma 
and Sinti that revives past anti-Roma rhetoric, centred on the image of 
them as ``nomads'', viewing them as a burden to social system or as 
dangers for public security and order based on alleged `Gypsy 
criminality'.
    The rise in open and often radical anti-Roma politics and policies 
at local levels is another challenging and new phenomenon. We witness 
local authorities and mayors actively pursuing policies aimed at 
forcing Roma and Sinti from their communities. Exclusion or separation 
is openly advocated in some municipalities, including in the 
segregation of children in educational systems. There are also cases of 
the refusal by local authorities to accept or request state aid aimed 
at supporting Roma communities.
    The Roma and Sinti, along with other disadvantaged minorities, are 
right now passing through `hard times', facing `hardening attitudes'--
just to recall the title of last year's briefing. This sense of 
hardship for Roma and Sinti is well illustrated in OSCE documents. The 
Astana Declaration, the 2009 Ministerial Council Decision from Athens 
the 2010 Review Conference in Warsaw, OSCE Parliamentary Assembly 
Belgrade Declaration and the 2011 Human Dimension Implementation 
Meeting Special Roma Day all addressed concerns regarding rising levels 
of violence and intolerance against members of this minority. Most 
recently, on 1 of February this year, the Declaration on the Rise of 
anti-Gypsyism and Racist Violence against Roma in Europe was adopted by 
the Committee of Ministers of the Council of Europe; the Committee 
expressed its deep concern about this trend.
    ODIHR in the past have been more focused on providing assistance to 
newer democracies and States in crisis or post-crisis situations. 
Today, and likely over the near future, such an assistance will be 
provided to consolidated and young democracies as instances of hate 
crime targeting Roma and Sinti may become a recurrent issue there. 
ODIHR has followed all of these developments closely and will continue 
to do so. The office managed to organize several field assessment 
visits to participating States and is preparing next one: all were led 
by the Senior Adviser on Roma and Sinti Issues.
    Parallel to these worrying developments, we are witnessing more 
promising efforts and initiatives aimed at ensuring human rights and 
social inclusion of Roma and Sinti. The most important are the new 
agenda of the European Union on Roma. With EU enlargements in 2004 and 
2007 that brought in a majority of Europe's Roma population, the centre 
of gravity for Roma and Sinti issues has, quite understandably, shifted 
to the EU and its institutions. The EU has both the political and 
financial tools to enforce some measures on its member States, 
something that other organizations do not have.
    Most recently, on 5 April 2011, the Commission issued a 
communication on an EU Framework for National Roma Integration 
Strategies, which was endorsed by the European Council in June. The 
Framework commits all 27 Member States to the development of targeted 
policies that systematically tackle the socio-economic exclusion of and 
discrimination against Roma people throughout the EU.
    This complex EU agenda on Roma and Sinti has been overshadowed by 
the euro crisis itself. Much of the response to the question of how 
this new effort of the EU regarding Roma can be successful and lasting 
will depend on the responses to other questions: How will the EU 
resolve the present crisis, and how long it will take to recover from 
it? Surprisingly little attention however, appears to having been paid 
to its possible negative impact on the most socially and economically 
disadvantaged groups in societies, including the Roma and Sinti. There 
seems to be a somehow parallel discourse on Roma disconnected from 
ongoing debates and concerns.
    The enlargement has been a matter of politics and not exclusively 
of standards and benchmarks. Pre-accession support programmes for Roma 
did not work to better integrate them; these programmes helped to 
design activities and establish offices for Roma policy, but were mere 
`window dressing'. Regrettably, expensive EU-funded projects have left 
few traces of outputs in Roma communities or a sense that these 
communities benefited. They remain socially excluded, with only a 
minimal chance of increased integration and improving their lives.
    The reports recently commissioned by the EU on use of its financial 
and policy instruments with regards Roma are in most parts critical: 
minimal progress has been achieved, disproportional funds were used to 
produce short-lived outcomes; existing initiatives and programmes have 
been confronted with a lack of political will at both the national and 
local levels; the effective use of structural funds as, well as the 
possibility of funds being misused, have both come into question. The 
reports recommended setting benchmarks and improving monitoring and 
evaluation, as well as focusing on attaining results and outcomes.
    To conclude this part: prospects in the short term appear poor in 
fields where there has been some constant, if minor, improvement in the 
past, such as in education, housing, political participation or Roma 
representation in public media. In a number of participating States 
there appear to have been setbacks in the areas mentioned above, as the 
gap between standards for Roma and Sinti and the majority populations 
have been, in fact, widening. With few social or economic indicators 
showing improvement in the situation of Roma, and evidence of 
increasing hostility toward their communities among non-Roma in some 
States, these disturbing trends might not just continue, but could very 
well worsen.
    In the crisis like this one the greatest challenge is raising the 
level of employment and opportunities for income among members of Roma 
and Sinti communities. Both the lack of education and skills and well 
as discrimination in the labour market effectively hinder progress in 
this area. The issue is even more challenging with the rising level of 
unemployment among majority populations, including among graduates and 
the young.
    Roma civil society has undergone difficult times as well. First, 
with accession concluded, donors and big private foundations tend to 
move their activities out from new EU countries. Within the EU space, 
Roma civil society, in particular, faces hardship in securing funding. 
Currently, the main sources for funding have become the state and/or EU 
financial instruments. Dependency on state funding brings limitations 
and disadvantages; funding may depend on the good will of a particular 
administration or other considerations. The weak development of human 
resources on the part of Roma organizations also impacts negatively on 
the securing of funding from EU sources; access to EU funding 
opportunities are a matter of specialized skills, knowledge and 
structures. As a result, Roma civil society may face difficulties in 
securing funds.
    What therefore would I urge states to do?
    Rising racism and extreme right pose a real threat to minorities, 
including immigrants and Roma and Sinti and, in consequence to social 
cohesion. Renewing commitments to teaching tolerance and preventing 
activities of neo-Nazi and extreme right groups is a most urgent need. 
The media can play a crucial role in combating discrimination and 
prejudices against minorities, immigrants and in particular Roma and 
Sinti. This is definitely an area where more attention and energy has 
to be invested in the future.
    The best way to deal with the future consequences of today's 
economic difficulties is to invest in education. This is particularly 
the case for the Roma and Sinti, who suffer the most from a lack of 
education and skills. The key here is both to work with parents, 
particularly the mothers, of Roma and Sinti children to raise their 
level of commitment and determination to push their children through 
education.
    I would recommend investing more in Roma and Sinti youth. The 
number of Roma and Sinti students at universities is rising. They need 
to be embraced and supported, as they can be the agents of change in 
Roma communities.
    There is a need to empower Roma and Sinti organizations, which will 
increasingly face challenges in attracting funding right now. Such 
grass-root organizations will be needed to win over the local 
authorities that are key for Roma and Sinti inclusion. Municipal 
associations, mayoral offices and local agencies are of central 
importance.
    Examples of good practices are tested by civil society, 
demonstrating which projects need to be scaled-up, adopted by the 
government, and introduced in a systemic way. I would stress, however, 
that the most important actors are ultimately Roma and Sinti families 
and individuals; they should play a key role in successfully overcoming 
disadvantages and become self-reliant and successful in their lives.
    The EU and national governments have to adopt a long-term approach. 
Some of the problems are deeply entrenched, and there are no quick 
fixes to attain goals like raising the level of education among Roma to 
a level comparable to national averages, or reducing levels of Roma 
unemployment or effectively countering discrimination faced by Roma in 
all areas of life.
    The implementation of various policies and measures has to be 
assessed and monitored. This work will be increasingly important for 
governments and the EU and other international stakeholders--there is a 
need for evidence-based policy design and accurate evaluation of 
outcomes.
    Co-operation and co-ordination is required not only to limit 
duplication, secure better outcomes, and ensure greater impact, but 
also to ensure more effective use of available funding. Future EU Roma 
policy should endeavour to maintain a balance between the 
responsibilities of EU institutions and their instruments and policies, 
and those of Member States. Such a policy shall not be an alibi on the 
part of the states for inaction, neglect or the view that Brussels is 
responsible. Stronger involvement on the part of the EU and the 
financial resources it has to offer can provide a push in the right 
direction.
    ODIHR continues to foster its co-operation with the European 
Commission. This year ODIHR has been one of the key partners for the 
EC's Directorate General for Enlargement, which held a series of high-
level roundtables on Roma in the context of the EU accession process in 
Serbia, Montenegro, Bosnia and Herzegovina, the former Yugoslav 
Republic of Macedonia, and Albania. ODIHR has been awarded an EC grant 
of over three million Euros for a regional project on ``Best Practices 
for Roma Integration'' in the Western Balkans. The implementation of 
the project started in January, and the project will be carried out 
over 23 months in close co-operation with OSCE field operations.
    This project demonstrates that the EU and the OSCE are increasingly 
co-coordinating and co-operating on issues of concern with regard to 
human rights and democratization.
    I take the opportunity here to thank United States for its 
substantial financial support for the project, and Germany, which has 
also provided support.
    Let me end by thanking Ms. Erika Schlager, a professional staff 
member at the Helsinki Commission. I admire her, as she is tireless in 
all her efforts to address and promote Roma rights here in Washington 
and in the entire OSCE world. This hearing is thanks also to her 
commitment and efforts.
    Thank you.
                        M A T E R I A L    F O R

                          T H E    R E C O R D

=======================================================================

       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
                 <all>


                                     

  

This is an official publication of the

Commission on Security and

Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document

developments and trends in participating

States of the Organization for Security

and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely

reproduced, in any form, with appropriate

credit. The Commission encourages

the widest possible dissemination

of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides

access to the latest press releases

and reports, as well as hearings and

briefings. Using the Commission's electronic

subscription service, readers are able

to receive press releases, articles,

and other materials by topic or countries

of particular interest.

Please subscribe today.
</pre></body></html>
